    FEDERAL ELECTION COMMISSION 


    OFFICE OF INSPECTOR GENERAL 





               FINAL REPORT 


Quality Assessment Audit of the Federal Election 

         Commission’s Audit Division 





                September 2012 


            ASSIGNMENT No. OIG-12-01

                 OFFICE OF INSPECTOR GENERAL
                                  TABLE OF CONTENTS


DESCRIPTION	                                                                 PAGE

Executive Summary                                                             1      


Background                                                                    4      


Objectives, Scope and Methodology                                             6      


Audit Findings and Recommendations 


   A.	 No formal adoption of professional auditing standards                  8


   B. Lack of a formal quality control program 	                              10 


   C. Proper evidence to support supervisory review not consistently 	        13 

      documented in workpapers 


   D. Roles of RAD campaign finance analysts that participate on audits 	     15 

      is not adequately defined or properly documented 


   E. Controls to ensure adherence with continuing professional          	    16             

      education (CPE) best practices needs to be improved 



Conclusion	                                                                   20         


Attachment 1: Summary of Audit Findings and Recommendations and 

              Management’s Response                                           21             

                                    EXECUTIVE SUMMARY
The Federal Election Commission (FEC) was established to oversee campaign financing and is
responsible for administering and enforcing the Federal Election Campaign Act of 1971, as
amended (“FECA”). The FEC is also responsible for enforcing all applicable federal election
statutes and regulations. At the FEC, the Audit Division (AD) has been authorized by the
Commission and delegated the responsibility for conducting audits of federal political committees
(“Committees”) that raise and expend funds to aid in the federal election of public officials. In
addition, the AD is responsible for evaluating the Presidential primary candidates’ applications
for matching funds and determining the amount of contributions that may be matched with federal
funds.

As required by Title 26 of the Internal Revenue Code, including relevant sections of the
Presidential Election Campaign Fund Act, (26 U.S.C. §§9007(a) and 9008(g)) and the
Presidential Primary Matching Payment Account Act (26 U.S.C.§ 9038(a)), all Presidential
campaigns and political party Presidential nominating convention committees, that accept public
funds must be audited, as well as, host city convention committees. Pursuant to the FECA
chapter of Title 2, United States Code (specifically 2 U.S.C. §438(b)), all political campaign
committees for the U.S. House of Representatives and U.S. Senate seats, all Presidential
committees (that do not receive public funds), and all other committees including political action
committees (PACs) and national state party committees are subject to an audit and/or field
investigations.

The purpose of this audit was to ensure the FEC Audit Division is performing quality audits, and
to recommend improvements when warranted. Specifically, the primary objective was to
determine if the FEC AD’s quality control system is suitably designed and consistently complied
with to the extent necessary to reasonably ensure compliance with professional audit standards
and internal policies. A system of quality control encompasses an audit department’s
organizational structure and the policies adopted and procedures established to provide it with
reasonable assurance of conforming to applicable professional auditing standards (best practices).
This audit was intended to model a peer review, which is a type of quality assessment that is
commonly conducted on Federal audit offices. As such, we utilized guidelines for peer reviews
established by The Council of the Inspectors General on Integrity and Efficiency (CIGIE). CIGIE
is an independent entity within the executive branch. CIGIE’s mandated mission is to address
integrity, economy, and effectiveness issues that transcend individual Government agencies and
to increase the professionalism and effectiveness of personnel in the offices of Inspectors General.

When assessing AD’s system of quality control, the Office of Inspector General (OIG) considered
auditing best practices based on applicable standards included in Generally Accepted Government
Auditing Standards (GAGAS) as well as Generally Accepted Auditing Standards (GAAS)
established by the AICPA (American Institute of Certified Public Accountants)1.

OIG was informed by AD Management that “they have not formally adopted GAGAS, but that
they generally follow aspects of GAGAS where applicable.” OIG notes that we are not aware of

1
 For financial audits, GAGAS incorporate the AICPA’s field work and reporting standards and the related statements
on auditing standards (SAS) unless specifically excluded or modified by GAGAS.
any requirements that FEC Audit Division’s audits must adhere to GAGAS, GAAS, or any other
professional auditing standards. However, in order to determine if the AD is producing quality
government audits, the OIG used GAGAS as the standard in which to evaluate the AD against.

Based on these best practices, audit organizations should design a system of quality control that
provides reasonable assurance of performing and reporting in conformity with applicable
professional standards in all material respects.

In performing our audit, OIG interviewed Audit Division personnel and obtained an
understanding of the nature of AD’s organization, and the design of AD’s system of quality
control to assess the risks implicit in AD’s audit function. In addition, the OIG selected a sample
of seven Committee audits and tested compliance with the AD’s internal quality control policies
and procedures, and auditing best practices, to the extent we considered appropriate.

Based on our assessment of the Audit Division’s quality control policies and procedures, AD’s
system of quality control needs to be enhanced to provide reasonable assurance of performing and
reporting in conformity with applicable government auditing best practices. Although AD’s
quality control system needs to be improved and formally documented, the OIG found no
indications that the audit testing actually performed by the AD was insufficient to support the
findings and conclusions included in the audit reports sampled. In fact, the AD has a very
vigorous audit planning (pre-audit) process that enables testing to concentrate on the most
significant (material) and high-risk audit areas. Also, AD develops standard detailed audit
programs that list every audit test step to be completed by the audit team for each type of audit
(Title 26 or Title 2). However, the Audit Division needs to enhance and formalize its existing
quality control process to ensure adequate evidence is consistently maintained to support audit
work performed, and that workpaper review procedures by someone other than the person who
performed the work is properly documented. This documentation ensures that audits consistently
comply with professional audit standards and internal policies and procedures.

OIG concludes that the weaknesses related to the design of AD’s quality control system are
partially attributed to the fact that the FEC Audit Division is not legally required to adhere to the
professional standards for government auditors. Although AD’s management states that AD
generally follows GAGAS, AD has not formally adopted applicable professional auditing best
practices nor established a formal written quality control framework. Nevertheless, the OIG
concludes the quality of the AD’s audits is acceptable and generally consistent with professional
auditing standards. OIG notes that the Audit Division is currently working on enhancing and
formalizing a quality control framework which will be applied to all phases of the audit process.

In addition to this report, we will issue a management letter that sets forth issues that were not
considered significant to be reported as findings in this report, but could enhance the effectiveness
of AD’s system of quality control.




                                                                                                        2
The OIG has identified five findings related to Audit Division quality control deficiencies which
are summarized below:

•	 No formal adoption of professional auditing standards;
•	 Lack of a formal quality control program;
•	 Proper evidence to support supervisory review not consistently documented in work papers;
•	 The role of the Reports Analysis Division Campaign Finance Analysts (RAD analysts) that
   participate on audits is not adequately defined or properly documented; and
•	 Controls to ensure compliance with continuing professional education (CPE) audit best
   practices needs to be improved.

OIG believes that by formally adopting applicable professional auditing standards and
implementing a formalized quality control program, reduces the risk that the Audit Division may
conduct audits that may be deficient, or lacking in competence, integrity, objectivity, and
independence.

The OIG has proposed 11 recommendations to AD to assist in addressing the identified findings
and issues listed above. Management has agreed to implement 5 of the 11 recommendations,
partially agrees with 3 recommendations, and disagrees with 3 recommendations.

The Office of Inspector General conducted this performance audit in accordance with
Government Auditing Standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




                                                                                                    3
                              BACKGROUND                          

The Federal Election Commission (FEC) was established to oversee campaign financing and is
responsible for administering and enforcing the Federal Election Campaign Act of 1971, as
amended (“FECA”). The FEC is also responsible for enforcing all applicable federal election
statutes and regulations. At the FEC, the Audit Division (AD) has been authorized by the
Commission and delegated the responsibility for conducting audits of federal political committees
(“Committees”). In addition, the AD is responsible for evaluating the Presidential primary
candidates’ applications for matching funds and determining the amount of contributions that may
be matched with federal funds.

As required by the Presidential Election Campaign Fund Act, “Title 26” (26 U.S.C. §§9007(a);
9038(a)), all Presidential campaigns and political party Presidential nominating convention
committees that accept public funds must be audited, as well as, host city convention committees.
Pursuant to the FECA chapter of Title 2, United States Code (specifically 2 U.S.C. § 438(b)), all
political campaign committees for the U.S. House of Representatives and U.S. Senate seats, all
Presidential committees (that do not receive public funds), and all other committees including
political action committees (PACs) and national and state party committees are subject to an
audit and/or field investigation.

The objective of all AD committee audits is to determine whether the committee complied with
the limitations, prohibitions, disclosures, and other requirements in accordance with applicable
federal election statutes and regulations (Title 26 and Title 2 audits). In addition, for Title 26
audits only, the objective is to also determine whether the candidate and/or committee used the
public funds in accordance with the applicable statutes and federal election regulations.

The FEC Audit Division performs three types of audits:

Title 26 Audits – audits of publicly financed committees and convention host committees.

Title 2-Authorized Committee Audits – audits of committees authorized by either Presidential
candidates who are not financed with public funds, or by U. S. Congressional candidates. These
committees are subject to Title 2 regulations.

Title 2-Unauthorized Committee Audits – audits of committees not authorized by a candidate
including party committees, political action committees (PACs), and separate segregated funds
(PACs connected to labor organizations, corporations, trade/membership associations, or
cooperatives).

The above audits cover a committee’s campaign finance activity for the respective election cycle.
For each election audit cycle, the AD updates its existing audit programs which are subsequently
approved by the Commission. The audit programs detail the audit review process and procedures
that will be completed by the audit team. For Title 2 audits, compliance threshold requirements
are established and approved by the Commission at the beginning of every election audit cycle.
These thresholds are utilized by the AD to evaluate whether committees have substantially
complied with FECA. Committees are required to file reports as per the FECA.
                                                                                                 4
Report Analysis Division (RAD) campaign finance analysts review all reports to track
compliance with election laws and to ensure that the public record provides a full and accurate
representation of campaign finance activity. If the FEC’s review identifies an apparent violation
or raises questions about the information disclosed on a report, there are several tools available
to address report issues including referring the committee to AD for an audit. Any Title 2
committee to be audited must be approved by the Commission.

As of November 22, 2011 (the official start date of this OIG audit), the AD completed and the
Commission approved 34 audit reports for the 2008 election cycle (the audit cycle under review
by OIG). All audit projects and most audit workpapers are maintained in TeamMate (TM), which
is an electronic audit workpaper and project management system.

At the beginning of the 2008 election audit cycle, there were five (5) audit teams which were each
headed by an audit manager. The audit managers report to the Assistant Staff Director for the
Audit Division. During the period under review, the Assistant Staff Director for Audit retired in
July 2011 and a new Assistant Staff Director for Audit was named in October 2011. As a result
of this and other employee turnover, the AD was in transition during the audit period under
review and was restructured from five (5) audit teams to four (4). Additionally, AD was
implementing newly adopted Commission procedures for the audit report process which included
increased opportunities for audited committees to respond to potential findings.




                                                                                                     5
        OBJECTIVES, SCOPE AND METHODOLOGY
Objectives

The Office of Inspector General’s (OIG) objectives for conducting this quality assessment audit
of the Federal Election Commission’s (FEC) Audit Division (AD) were to:

1.	 Determine if the AD has a quality control system that is suitably designed to reasonably
    ensure compliance with professional audit standards (best practices) and internal policies;
2.	 Verify that quality controls and internal policies and procedures are consistently followed and
    operating effectively; and
3.	 Identify areas for improvements and provide guidance and recommendations based on best
    practices.

Scope

During the OIG’s audit planning phase, we interviewed AD management to obtain an
understanding of the nature of the AD organization and the audit process used to assign, plan and
conduct committee audits. Based on this initial assessment, OIG decided to select a sample of
each audit category (Title 26, authorized, unauthorized committees) from the most recent election
cycle. Therefore, the period under review for this OIG audit included the 2008 election cycle (the
most recent election cycle with issued reports at the time this OIG audit commenced). The total
population for the period under review was 34 audit reports. The OIG excluded seven audits from
the population as they were related to reports issued prior to the implementation of a new audit
reporting process (Directive 70) which occurred in the middle of the 2008 election audit cycle.
This exclusion resulted in an audit population of 27 audit reports. We selected a non-statistical
sample of seven audits (three Title 26 audits, two authorized audits, and two unauthorized audits)
which represents 26% of the population. The OIG utilized a computerized random sample
generator to make the selections for five of the seven audits. The other two audits were selected
using judgmental sampling. This was necessary to ensure the sample represented a reasonable
cross-section of the different types of audits conducted and of the different audit teams.

The majority of the audits selected for testing were performed by the AD between March 2008
and October 2011. We tested compliance with the AD’s system of quality control to the extent
we considered appropriate.

OIG Audit Methodology

To accomplish the audit objectives, OIG performed the following:
•	 Reviewed the Audit Division’s audit programs and other supplemental guidance for
   conducting audits.

•	 Gained an understanding of the AD organization’s internal quality assurance program through
   interviews and conducting a walkthrough of the AD audit process.



                                                                                                  6
•	 Assessed the design of the AD’s overall internal quality control system and benchmarked
   against best practices to determine if improvements should be recommended.

•	 Interviewed various levels of the professional AD staff to assess their understanding of, and
   compliance with, relevant quality control policies and procedures.

•	 Examined the audit workpapers and audit reports of committee audits selected for testing to
   ensure that auditors consistently comply with internal policies and procedures; adhere to
   applicable auditing best practices; audit conclusions are properly supported with sufficient and
   competent evidence; and supervisory review of audits is timely throughout the conduct of
   audits. These reviews were documented utilizing a checklist based on GAGAS to determine
   if the AD has implemented best practices (where applicable).

•	 Verified if audit staff is adhering to auditing best practices related to continuing professional
   education (CPE) by obtaining adequate training to ensure audits are conducted in an effective
   and efficient manner and in accordance with professional auditing standards and best
   practices.




                                                                                                   7
   AUDIT FINDINGS AND RECOMMENDATIONS
A. The Audit Division has not formally adopted professional auditing standards

The Audit Division (AD) has not formally adopted Government Auditing Standards (GAS) or any
other professional auditing standards framework which would allow the AD to formally assess
whether their audits are conducted in accordance with best practices for government audits.
Professional auditing standards are intended to ensure that audits have gone through a rigorous
process to ensure efficiency and quality.

Based on OIG’s assessment of the Audit Division’s audit process, we determined the following:

•	 AD’s audits are based on the requirements outlined in the federal election statutes and
   regulations.

•	 AD has not formally adopted a professional auditing standards framework to ensure audit
   standards are followed.

•	 The AD does not perform an internal annual assessment of audit operations or an external
   review process (peer review) to periodically assess if the AD is conducting audits in
   accordance with auditing best practices to perform quality government audits.

According to the Government Accountability Office, the Government Auditing Standards (GAS),
commonly referred to as generally accepted government auditing standards, provides a framework
for performing high-quality audit work with competence, integrity, objectivity, and independence.
GAS 1.04 (Purpose and Applicability of GAGAS) states, - “Many auditors and audit
organizations also voluntarily choose to perform their work in accordance with GAGAS….”

Based on our research of GAS (the “Yellow Book”) and Federal election statutes and regulations,
it does not appear that the FEC Audit Division is legally required to follow GAS or any other
professional auditing standard. OIG notes that although the AD has not volunteered to formally
adopt GAS, AD stated that they “generally” follow GAS. However, the aspects of GAS that are
followed are not formally documented. OIG also acknowledges that the level of audit evidence
required by GAS to provide assurance of compliance is not consistent in all respects with the
compliance requirements contained in the Federal election statutes and regulations.

Not establishing and documenting a set of auditing standards and implementing monitoring
controls to evaluate compliance with those standards may lead to a perception that FEC audits do
not provide the same assurance of audits performed by other government audits that follow GAS.

Recommendation #1
The Audit Division should formally adopt a set of professional auditing standards which should
incorporate professional auditing best practices (where feasible). The auditing standards adopted
should be reflected in AD’s documented policies and procedures to govern their process for
conducting audits.

                                                                                                8
Management Response:
Audit Division Management (Management) agrees with this recommendation. While AD is not
legally required to follow GAGAS or any other professional auditing standard, the Division does
generally follow GAGAS standards to ensure efficient and quality audits. Management will
document enhancements to the quality control process in the FEC Audit Division Quality
Standards (to be completed September 2012). This document will provide a framework to further
ensure the appropriate quality control measures are executed in the Division.

OIG Comment:
The OIG believes management’s response will address this recommendation once fully
implemented. The OIG looks forward to reviewing the quality control framework to ensure that it
fully addresses auditing best practices included in this recommendation.

Recommendation #2
The Audit Division should consider establishing a policy to have an independent external review
(peer review) every three years in accordance with best practices. If adopted, this requirement
should be incorporated with their written professional auditing standards framework.

Management Response:
Management disagrees with this recommendation. The Commission is legislatively mandated to
audit politically sensitive materials for which there is no comparable external peer. Management
is committed to monitoring the current quality control procedures (referencing and management
review) and will institute an internal sampling and review of audits periodically to ensure
compliance with the FEC Audit Division Quality Standards. The review will be conducted by
Division staff (Auditors or Audit Managers) with no previous direct involvement with the audit.

OIG Comment:
OIG notes that external peer reviews are a best practice. In the absence of an external peer review
process by the AD, the FEC OIG will consider periodically reviewing the AD.

Recommendation #3
Require audit staff to obtain training on applicable professional auditing standards to adequately
apply the standards during audit engagements.

Management Response:
Management agrees with this recommendation and as such, all audit staff have been and will
continue to be appropriately and adequately trained on applicable professional auditing standards
to ensure efficient and quality audits. Training of the audit staff on professional auditing
standards will continue.

OIG Comment:
During our interviews of AD staff members, several employees felt that they have not received
sufficient training on auditing standards that they are required to follow. OIG notes that while
most AD staff members are seasoned auditors, the AD has hired less experienced auditors outside
the FEC over the past few years. OIG believes that management’s commitment to continuous
training will fully address this recommendation.

                                                                                                     9
B. Lack of a formal quality control program

The Audit Division does not have a sufficient and documented system of quality control
consistent with professional auditing standards (best practices). The OIG notes that while the AD
does utilize standard audit programs, which include some quality control elements, there is no
official documented quality control framework in place that ensures all audits have been
conducted in accordance with internal requirements and/or best practices. For example, the AD
can enhance its quality control program by initiating the following:

•	 a formal documented policy document to govern their overall audit process;
•	 an official quality control review process for each audit to ensure all required audit steps were
   properly completed;
•	 “close out” procedures in TeamMate (electronic audit workpaper and project management
   system) to evidence the audit has been properly completed;
•	 an annual internal assessment to monitor if quality controls are adequately designed and
   operating effectively;
•	 a policy that requires audit staff and/or specialists (RAD campaign finance analysts) to certify
   that they are independent and free from external impairments prior to conducting an audit; and
•	 a formal policy that states all staff involved in the audit process must adhere to audit CPE best
   practices.

A system of quality control is necessary to provide an audit department with reasonable assurance
that the department and its personnel comply with professional auditing standards (best practices).
According to Government Auditing Standards (GAS 3.53), “An audit organization’s system of
quality control encompasses the audit organization’s leadership, emphasis on performing high
quality work, and the organization’s policies and procedures designed to provide reasonable
assurance of complying with professional standards and applicable legal and regulatory
requirements.”

A system of quality control should address:

(a)   Leadership responsibilities;
(b)   Independence, legal, and ethical requirements;
(c)   Initiation, acceptance, and continuance of audit engagement;
(d)   Human Resources;
(e)   Audit engagement performance, documentation, and reporting; and
(f)   Monitoring of quality.

By enhancing its quality controls, the AD reduces the risk that audits are not performed in
compliance with internal policies and procedures and/or do not meet professional auditing
standards. A formal monitoring process would also enhance control procedures and maintain the
overall quality of the audits.




                                                                                                 10
Recommendation #4
The Audit Division should document and implement a quality control framework. The quality
control framework should address best practices of professional auditing standards (where
applicable) including the following elements:
   •	 independence requirements [for both audit staff and specialists (RAD campaign finance
        analysts)];
   •	 documented policies and procedures;
   •	 proper communication of policies and procedures to staff involved in the audits; and
   •	 adequate workpaper standards.

Management Response:
Management partially agrees with this recommendation. Currently, several longstanding
procedures provide sufficient quality control. The Audit Programs, approved by the Commission,
contain directed procedures and quality control elements to govern the audit process. Peer
auditors not associated with the subject audit are required to review and reference each audit
report to ensure accuracy and compliance with the laws, regulations, and the Audit Program. This
has been the practice in the Division for at least 20 years. In addition, Management also reviews
all workpapers and audit reports for accuracy and compliance with laws, regulations and the
Audit Program. As directed by Commission procedures, the General Counsel’s office also
analyzes reports for correct and consistent application of the law. Management will enhance the
documentation of quality control policies and procedures in the FEC Audit Division Quality
Standards (to be completed September 2012).

Management does not agree with the recommendation related to independence of auditors and
RAD campaign finance analysts. Independence is required for all FEC employees and the
Commissioners. Formal policies are thus already in place to ensure proper independence,
including for all FEC audit staff (including RAD campaign finance analysts). Like all other
Federal executive branch employees, FEC audit staff (including RAD campaign finance analysts
assisting with audits) is subject to the conflict of interest provisions of Title 18, United States
Code and the regulations of the Office of Government Ethics. Thus, like all employees, auditors
may not participate personally or substantially in an audit that will have a direct and predictable
effect on their own financial interests or those of a person whose financial interests are imputed to
them. 18 U.S.C. § 208. FEC auditors audit only political committees, not commercial (or any
other) types of entities. Also, like all employees, auditors must not participate personally or
substantially in audits in which they have a “covered relationship” (as defined in OGE
regulations) with the audited committee, or in which they have a “covered relationship” with a
person who represents the committee. 5 C.F.R. § 2635.501(a). They may also consult with the
Ethics Office if they are concerned that circumstances not specifically covered by statute or
regulation would cause a reasonable person with knowledge of the pertinent facts to question their
impartiality. 5 C.F.R. § 2635.502(a)(2).


OIG Comment:
OIG notes that while the AD does currently have some standard quality control practices, we
found that audits conducted during the period under this OIG review these practices were not
consistently operating effectively.

                                                                                                  11
The OIG is encouraged by management’s plans to enhance the documentation of AD’s quality
control policies and procedures and we look forward to reviewing the enhancements once
implemented.

Although management has generally agreed with the OIG’s recommendation to implement a
quality control framework, AD does not agree that it is necessary to incorporate independence
requirements. The OIG believes that while there are policies and regulations related to
independence for all FEC staff, auditors are held to a higher standard and it is an audit best
practice to specifically and explicitly address external impairments related to audits and those
conducting audits. Therefore, the OIG still believes that FEC and AD’s policies and practices
related to independence, conflict of interest/external impairments should be reflected in the
quality control framework. Only if all requirements are revised according to the new standard
procedures will this recommendation be fully implemented.

Recommendation #5
The Audit Division should document and implement standard quality control processes and
procedures. To ensure quality controls are properly implemented and operating effectively, AD
Management should incorporate the following controls:
   •	 create a quality control checklist to be completed at the end of each audit to ensure audit
       workpapers properly reflect that the audit was performed in accordance to the quality
       control framework adopted;
   •	 require audit staff and applicable specialists (RAD campaign finance analysts) to certify
       they are free from external impairments related to the committees they are auditing; and
   •	 implement a process to ensure all Teammate audit projects are finalized to ensure all
       workpapers have been properly prepared and reviewed.

Management Response:
Management partially agrees with this recommendation. Currently, several longstanding
procedures provide sufficient quality control consistent with professional auditing standards.
Management will enhance the documentation of quality control policies and procedures in
the FEC Audit Division Quality Standards (to be completed September 2012).

See response in Recommendation #4.

OIG Comment:
The OIG believes management’s planned actions will address this recommendation. However,
OIG notes that it is imperative that sufficient monitoring controls (e.g. quality control checklist,
finalizing projects in TeamMate) are implemented to ensure the process is consistently operating
effectively. The OIG looks forward to reviewing the quality control policies and procedures to
ensure it fully addresses this recommendation.

Recommendation #6
The Audit Division should conduct a formalized annual internal quality control assessment of the
AD’s overall audit process to include the attributes identified in GAS 3.53 (a-f) (see page 10) or
another audit best practice to monitor the effectiveness and efficiency of the audit process. If
improvements are noted during the assessment, management should develop and document the
recommendation(s) and corrective action(s) to address the issues noted.
                                                                                                    12
Management Response:
Management agrees with this recommendation. Management is committed to monitoring the
current quality control procedures (referencing and management review) and, in accordance with
FEC Audit Division Quality Standards, which will be completed in September 2012, a periodic
internal quality control assessment will be conducted.

OIG Comment:
The OIG believes management’s planned actions will address this recommendation once fully
implemented.

C. Proper 	evidence to support supervisory review not consistently documented in
   workpapers

The Audit Division does not consistently follow internal procedures or standard professional
auditing best practices to evidence proper review and supervision of audits conducted. Based on
the 7 audits reviewed, OIG found the following:

•	 In 5 of 7 audits, all audit workpapers were not always signed off in the TeamMate (TM)
   electronic audit software system by the audit manager to evidence that the applicable audit
   steps had been completed. In one of these audits, the WP data was included in the audit
   report.
•	 In 2 of 7 audits, the reason for not performing audit steps was not documented and signed off
   by the audit manager.
•	 In 3 of 7 audits, TM project files contain workpapers that were only signed by the team lead
   and thus there is no evidence to support whether the team lead was the preparer or the
   reviewer. As a result, OIG cannot determine if these workpapers were properly reviewed.
•	 In 4 of 7 audits, coaching notes (reviewer comments) were not subsequently signed-off
   (cleared) by the audit manager/reviewer to evidence that the coaching note was properly
   addressed by the audit staff.

There are several factors that the OIG believes contributed to these findings. First, the AD does
not have a formal internal policy (see recommendation # 1) that clearly documents the roles of the
audit manager; lead auditor; and audit staff. Also, AD lacks standard workpaper review
procedures to include how to sufficiently address and document reviewer comments. In addition,
there is no standard control procedure to ensure that all workpapers that are cross referenced to
the audit report have been reviewed and signed-off by the audit manager or a designated reviewer.
As a result, audit teams are not consistent in their application of audit workpaper documentation
and review procedures.

Secondly, OIG recognizes that AD team members normally perform audit testing offsite at the
respective committees’ offices and may not have the ability to access TM, and therefore must
prepare workpapers outside of the TM project file. In these instances, the lead auditor is
responsible for uploading all workpaper files in TM (which records the workpaper as “prepared”
by the lead auditor).


                                                                                               13
The AD does not have a standard policy or process in place that requires the workpaper
“preparer” (the auditor who actually performed the audit testing) to subsequently go into TM to
sign-off on the workpaper as “preparer,” or requires the “preparer” to sign-off directly on the
actual workpaper prior to uploading the file into TM.

 According to GAGAS Section 4.20, “…auditors also should document before the audit report is
issued, evidence of supervisory review of the work performed that supports findings, conclusions,
and recommendations contained in the audit report.”Also, the AICPA AU Section 339.18 states,
“…In documenting the nature, timing, and extent of audit procedures performed, the auditor
should record: a. Who performed the audit work and the date such work was completed; and b.
Who reviewed specific audit documentation and the date of such review…”

Not consistently maintaining adequate documentation to evidence proper review and supervision
of audits increases the risk that audit program steps may not properly be completed, audits may
not be properly supervised, and/or audit work may not be reviewed in accordance with
professional standards and/or internal policies and procedures. In addition, the lack of adequate
evidence of review increases the risk that an independent reviewer outside the AD may question
the quality of the audits conducted.

Recommendation #7
Audit Division Management should implement standard control procedures for documenting
proper review and supervision of each audit and incorporate into the overall quality control
framework. The review and supervision process should include the following:
•	 the audit managers should be required to sign-off on all program audit steps included in TM;
•	 workpapers (WPs) should be properly signed-off by the person who prepared the WPs;
•	 once workpapers are uploaded in TM, they should be properly signed-off as “reviewed” by a
   higher level AD staff member (i.e. lead auditor/audit manager);
•	 coaching notes (reviewer comments) should be required to be sufficiently addressed and
   cleared with the proper sign-offs in TM; and
•	 AD management (or designee) should ensure that workpapers that support data included in the
   audit report and subsequently cross referenced to the report have been properly signed-off by
   the reviewer before the audit report indexing procedure is completed.

Management Response:
Management agrees with this recommendation. Management is in the process of formalizing
written review and supervision procedures that will follow the FEC Audit Division Quality
Standards. Although at the time of the OIG audit, standards were not formally documented,
procedures were and remain in place for the proper review and supervision of all audits.
Additionally, all workpapers, findings and reports are, and continue to be, thoroughly reviewed by
Management. The Division provided training to all staff on workpaper sign-off procedures and
report referencing guidelines in November 2011 and in March 2012. In addition, written
procedures on how to document the applicable audit steps in TeamMate were sent to the staff in
March of 2012 to reinforce consistency of review across the Division.




                                                                                                  14
OIG Comment:
The OIG believes management’s planned actions will address this recommendation once fully
implemented. The OIG looks forward to reviewing the review and supervision procedures to
ensure they fully address this recommendation.

D. The role of the RAD campaign finance analysts that participate on audits is not
   adequately defined or properly documented

The Audit Division has a policy related to assigning RAD campaign finance analysts to audits
(RAD Audit Fieldwork Guide); however, this document does not adequately explain the role of
the RAD campaign finance analyst in an audit, and does not document what audit procedures
during fieldwork the RAD campaign finance analyst is responsible for completing and/or what
specific task(s) they are not allowed to perform. In addition, the work performed by RAD
campaign finance analysts was not consistently documented in the audit workpapers for the audits
sampled by the OIG. As a result, the OIG was unable to determine with reasonable assurance
whether certain audit testing was or was not completed by RAD campaign finance analysts, and
whether the RAD campaign finance analysts possessed the proper auditing experience and/or
qualifications to perform such testing.

According to professional auditing best practices, there are restrictions related to how specialists
can be used on audit engagements. If specialists are being utilized for their expertise only, they
are not required to comply with professional auditing standards. However, according to GAGAS
section 4.19a, “… Internal specialists who are part of the audit organization and perform as a
member of the audit team should comply with GAGAS, including the CPE requirements.”

If the roles of the RAD campaign finance analysts are not defined, and the work performed by the
RAD campaign finance analyst is not reflected in the workpapers, the risk that the RAD campaign
finance analysts’ work could expand beyond their area of expertise and negatively impact the
quality of the audit is increased.

Recommendation #8
a.	 The Audit Division should revise the RAD Audit Fieldwork Guide to include clearly defined
    roles of the RAD campaign finance analyst during an audit, a list of the types of audit
    procedures the analyst can be assigned, and what specific audit steps are prohibited from
    being performed by RAD campaign finance analysts.

b.	 The Audit Division should document the work performed by RAD campaign finance analysts
    for each audit and RAD campaign finance analysts should be required to sign-off on any audit
    workpapers prepared before they are uploaded in TM (as RAD campaign finance analysts are
    not provided access to TM).

Management Response:
Management does not agree with these recommendations. Management already has a written
policy that outlines the role for the campaign finance analyst that is suitable to their expertise.
According to that policy, fieldwork assignments for a RAD campaign finance analyst are made by
the Chief Compliance Officer after discussion with the Assistant Staff Directors of both RAD and
Audit.
                                                                                                   15
Management will incorporate the RAD audit fieldwork guide into the FEC Audit Division Quality
Standards. Prior to fieldwork, an Audit Testing Plan is developed and discussed with
Management. Assignment of audit reviews to be performed by Auditors and RAD campaign
finance analyst is part of that planning discussion and is included in the Audit Program. All work
performed by a RAD campaign finance analyst is reviewed by the Lead Auditor and Audit
Manager to ensure proper utilization of this specialist’s work throughout the process.

AD will require the campaign finance analyst to sign-off on their completed work.

OIG Comment:
OIG does not agree that the current written policy (RAD Audit Fieldwork Guide) adequately
explains the role of the RAD campaign finance analyst. The OIG would suggest that
management consider revising the RAD Audit Fieldwork Guide before incorporating controls
related to the work of RAD campaign finance analysts into the applicable quality control
documents. The OIG looks forward to reviewing the quality control standards to ensure that it
fully addresses this recommendation.

In addition, based on audits reviewed by OIG, there was not consistent evidence to support that
the work of RAD campaign finance analysts was always properly documented and reviewed. The
OIG believes management’s decision to require campaign finance analysts to sign-off on work
completed will improve controls to ensure work of a RAD campaign finance analyst is properly
documented.

E. Continuing professional education (CPE) best practices needs to be improved

Continuing professional education (CPE) requirements are designed to ensure audit staff members
continue to maintain and enhance their knowledge, skills, and abilities in conducting, leading, and
performing audits. It is important that audit organizations promote professional competency
through continuous training to ensure quality audits are performed. The AD currently requires all
staff members involved in the audit process to obtain 80 hours of CPEs during each two year
reporting cycle; this is consistent with audit best practices. The AD has a very detailed CPE
tracking and reporting system which is designed to adequately consolidate and monitor CPEs
earned for each staff member.

To determine if AD’s process for tracking and monitoring CPEs obtained to meet the government
auditing standard (best practice) is operating effectively, OIG selected a sample of 23 audit staff
from the CPE tracking report. For each employee, we compared all CPE credits included on the
tracking report to supporting documentation and assessed whether the training received is eligible
for CPE under the GAO guidance.
Based on our audit testing, we found that sufficient documentation to evidence CPE’s earned is
not always maintained and that controls could be improved to make the process more efficient
and effective. The results of our detailed testing are as follows:
•	 There were 22 instances where CPEs listed on the AD CPE tracking report did not contain
    proper support to substantiate that the auditor actually attended the training, or adequate
    evidence was missing from the applicable employee training file (only the email request to
    attend training from the Audit staff was included in the file; or the training approval package
    does not include evidence that substantiates the staff member actually attended the training).
                                                                                                 16
•	 3 staff members (two audit managers and one audit staff) did not obtain the 80 hour CPE
   requirement during the 2 year audit period under review.
•	 AD staff was given CPE credits for WebTa (FEC’s Time and Attendance system) training
   which OIG believes does not meet the CPE eligibility requirements per GAGAS.

According to GAO Guidance on GAGAS Requirements for Continuing Professional Education
(GAO-05-568G), section 33, “… GAGAS require that audit organizations ensure that auditors
meet the CPE requirements…Individual auditors, in conjunction with the audit organization, are
responsible for monitoring their own progress towards meeting the CPE requirements and
maintaining evidence of their attendance at or completion of CPE programs…”

The AD does not have a formal documented policy that communicates to its staff the internal
requirements to ensure compliance with GAGAS CPE guidance. In addition, management
informed the OIG after the completion of our CPE testing that the former Deputy Staff Director
of Audit2 did not require audit managers to obtain the full 80 hours of CPE training. Therefore,
during the audit period under review, only the audit staff members who actually performed audit
testing were required to comply with the 80 hour CPE requirement. OIG notes that this does not
adhere with professional auditing best practices, which also require anyone who leads audits, or
reviews/signs-off on audit workpapers and reports to obtain 80 hours of CPE training.

The lack of having a formal CPE policy that is documented and communicated to all employees
increases the risk that auditors may not be obtaining adequate CPEs in compliance with auditing
best practices.

Recommendation #9
The AD should formally document their policies and procedures relating to current CPE
requirements. The policy should include the following:
•	 the AD has adopted the 80 hour CPE requirements in accordance with GAO’s Guidance on
   GAGAS Requirements for Continuing Professional Education;
•	 each AD staff member is responsible for providing adequate documentation to support CPEs
   earned; and
•	 guidelines that explain and give examples of what type of training is eligible and ineligible to
   meet GAGAS CPE requirements.

Management Response:
Management agrees with this recommendation. Management will formalize CPE policies in the
FEC Audit Division Quality Standards, which will include the existing 80 hour CPE requirement,
guidelines that explain what type of training is eligible and instructions on maintaining
documentation on the server.

OIG Comment:
The OIG believes management’s planned actions will address this recommendation once fully
implemented. The OIG looks forward to reviewing the CPE policy to ensure it fully addresses
this recommendation.

2
 The audits reviewed by the OIG during the 2008 election cycle were under the purview of the Audit Division’s
former Assistant Staff Director for the Audit Division.
                                                                                                                17
Recommendation #10
The AD should strengthen control procedures to ensure AD CPE requirements are met by
implementing the following:
•	 the audit manager responsible for tracking and monitoring CPEs should be required to verify
   that all training included in the CPE tracking report is supported by proper evidence in
   accordance with GAO’s Guidance on GAGAS Requirements for Continuing Professional
   Education, Section 36: Maintaining Documentation; and
•	 when training request forms are the only source of evidence, AD staff should be required to
   sign the training form in the appropriate section to certify that they actually attended and/or
   completed the training.

Management Response:
Management disagrees with this recommendation. All CPE classes were properly documented
through spreadsheets, emails, attendance sheets, certificates, etc. GAGAS Requirements for
Continuing Professional Education, Supplemental Guidance section 35, (Maintaining
Documentation) states that the audit organization records, should include the name, title, dates
attended, and the number of CPE hours earned. Management tracks all the aforementioned
information. Additionally, Management provided OIG copies of all certificates for all but four
instances.

OIG Comment:
Based on the results of our audit testing, we conclude that for the period reviewed, the AD’s CPE
monitoring procedures were not operating effectively to ensure compliance with GAGAS CPE
best practices, nor do they support management’s response. Prior to performing CPE testing, AD
stated that one audit manager was responsible for tracking and reporting CPE credits for the entire
AD staff.
OIG was provided individual folders for each audit staff member and one folder for group
training that contained supporting documentation for CPE credits earned. Audit testing revealed
the following:
    •	 The files were not complete with all the supporting documentation related to CPE credits
        included in the tracking report. Additional training documentation that was not located in
        the CPE files during our initial testing was provided to the OIG on three separate
        occasions in an attempt to clear the noted exceptions.
    •	 The OIG noted instances where the supporting documentation was not sufficient to
        evidence that auditors actually attended the training (e.g. travel request, registration
        confirmation only).

Contrary to management’s response above, OIG’s subsequent reviews still resulted in 22
instances of missing or inadequate CPE documentation for 11 of the AD’s staff members.
Failure to implement this recommendation or apply alternate monitoring procedures will continue
to increase the risk of not having adequate controls related to ensuring audit staff complies with
CPE best practices.




                                                                                                   18
Recommendation #11
The Audit Division should establish training guidelines to ensure employees are obtaining proper
training (e.g. training on applicable auditing standards, audit related topics). Individual training
needs and types of training planned to meet GAGAS CPE requirements should be incorporated
into each auditor’s annual performance plan.

Management Response:
Management partially agrees with this recommendation. Management will formalize CPE
policies in the FEC Audit Division Quality Standards. Although Management has been tracking
this information, it will enhance this procedure by making it available to the staff in real time.
Additionally, Management will develop a core curriculum for the staff and will meet annually to
discuss.

OIG Comment:
The OIG believes management’s planned actions will address this recommendation once fully
implemented. We still believe that incorporating training to satisfy CPE best practices into
individual auditors’ annual performance plans is a best practice that should be considered by
management. The OIG looks forward to reviewing the CPE policy to ensure it fully addresses
this recommendation.




                                                                                                  19
                                    CONCLUSION 

Based on this quality assessment audit by the OIG, except for the audit findings contained in this
report, we conclude the Audit Division’s system of quality control in effect during the 2008
election audit cycle has been suitably designed to provide reasonable assurance of performing and
reporting in conformity with applicable professional auditing best practices. However, some
enhancements are needed to ensure that the system of quality control is properly documented,
communicated, and applied. This OIG opinion is primarily due to the fact that the AD has not
formally documented a suitable professional auditing standards framework to provide
stakeholders and the public with assurance that the Audit Division has consistently performed due
professional care as government auditors to produce quality audits. By formally adopting
professional auditing standards, the AD decreases the perception and risk that the Audit Division
could potentially conduct audits that may be deficient, and may be lacking in competence,
integrity, objectivity, and independence. OIG notes that the AD is currently working on
documenting and implementing a quality control framework to be applied to all phases of the
audit process. Even though FEC audits (Title 2 & Title 26) are not legally required to comply
with generally accepted government auditing standards (GAGAS), OIG strongly encourages
Management to formally incorporate the best practices of GAGAS where feasible and applicable,
to ensure and measure the quality of audits performed are aligned with audits performed
government-wide.

The OIG notes that based on our review of the Audit Divison’s workpapers sampled, audit
evidence and testing actually performed was sufficient to support the conclusions and findings
included in the sampled audit reports. However, the OIG concludes that AD’s workpaper
documentation needs to be improved to ensure proper review and supervision is consistently
documented to support audits conducted by the AD, are in compliance with internal policies and
procedures, and that they also meet, to the extent possible, professional auditing best practices.

The OIG believes implementation of the recommendations provided in this audit report will assist
the Audit Division in establishing and strengthening adequate controls, effective monitoring
processes, and maintain the quality of audits conducted.




                                                                                                20
  Summary of Audit Findings and Recommendations and Management’s Response
    Finding                 Recommendation                         Management Response                          OIG Comment
A. The Audit       1. Formally adopt a set of            “Agree with recommendation: While AD         The OIG believes management’s
Division has not   professional auditing standards       is not legally required to follow GAGAS      response will address this
formally           which should incorporate              or any other professional auditing           recommendation once fully
adopted            professional auditing best            standard, the Division does generally        implemented. The OIG looks
professional       practices (where feasible). The       follow GAGAS standards to ensure             forward to reviewing the quality
auditing           auditing standards adopted should     efficient and quality audits. Management     control framework to ensure that
standards          be reflected in AD’s documented       will document enhancements to the quality    it fully addresses auditing best
                   policies and procedures to govern     control process in the FEC Audit Division    practices included in this
                   their process for conducting          Quality Standards (to be completed           recommendation.
                   audits.                               September 2012). This document will
                                                         provide a framework to further ensure the
                                                         appropriate quality control measures are
                                                         executed in the Division.”



                   2. Consider establishing a policy     “Disagree with recommendation: The           OIG notes that external peer
                   to have an independent external       Commission is legislatively mandated to      reviews are a best practice. In the
                   review (peer review) every three      audit politically sensitive materials for    absence of an external peer
                   years in accordance with best         which there is no comparable external        review process by the AD, the
                   practices. If adopted, this           peer. Management is committed to             FEC OIG will consider
                   requirement should be                 monitoring the current quality control       periodically reviewing the AD.
                   incorporated with their written       procedures (referencing and management
                   professional auditing standards       review) and will institute an internal
                   framework.                            sampling and review of audits
                                                         periodically to ensure compliance with the
                                                         FEC Audit Division Quality Standards.
                                                         The review will be conducted by Division
                                                         staff (Auditors or Audit Managers) with
                                                         no previous direct involvement with the
                                                         audit.”

                   3. Require audit staff to obtain      “Agree with recommendation: As such, all     During our interviews of AD
                   training on applicable professional   audit staff have been and will continue to   staff members, several employees
                   auditing standards to adequately      be appropriately and adequately trained      felt that they have not received
                   apply the standards during audit      on applicable professional auditing          sufficient training on auditing
                   engagements.                          standards to ensure efficient and quality    standards that they are required to
                                                         audits. Training of the audit staff on       follow. OIG believes that
                                                         professional auditing standards will         management’s commitment to
                                                         continue.”                                   continuous training will fully
                                                                                                      address this recommendation.




                                                                                                                             21 

  Summary of Audit Findings and Recommendations and Management’s Response
    Finding                Recommendation                       Management Response                           OIG Comment
B. Lack of a      4. Document and implement a          “Partially agree with recommendation:        Although management has
formal quality    quality control framework. The       Currently, several longstanding              generally agreed with the OIG’s
control program   quality control framework should     procedures provide sufficient quality        recommendation to implement a
                  address best practices of            control. For example, Peer auditors not      quality control framework, AD
                  professional auditing standards      associated with the subject audit are        does not agree that it is necessary
                  (where applicable) including the     required to review and reference each        to incorporate independence
                  following elements:                  audit report to ensure accuracy and          requirements. The OIG notes that
                  •    independence requirements       compliance with the laws, regulations,       it is an audit best practice to
                       [for both audit staff and       and the Audit Program. This has been the     specifically and explicitly address
                       specialists (RAD campaign       practice in the Division for at least 20     external impairments related to
                       finance analysts)];             years. Management will enhance the           audits and those conducting
                  •    documented policies and         documentation of quality control policies    audits. Therefore, the OIG still
                       procedures;                     and procedures in the FEC Audit Division     believes that AD’s policies and
                  •    proper communication of         Quality Standards (to be completed           practices related to
                       policies and procedures to      September 2012).                             independence/external
                       staff involved in the audits;                                                impairments should be reflected
                       and                             Management does not agree with the           in the quality control framework.
                  •    adequate workpaper              recommendation related to independence       Only if all requirements are
                       standards.                      of auditors and RAD campaign finance         revised according to the new
                                                       analysts. Independence is required for all   standard procedures will this
                                                       FEC employees and the Commissioners.         recommendation be fully
                                                       Formal policies are thus already in place    implemented.
                                                       to ensure proper independence Also, like
                                                       all employees, auditors must not
                                                       participate personally or substantially in
                                                       audits in which they have a “covered
                                                       relationship” (as defined in OGE
                                                       regulations) with the audited committee,
                                                       or in which they have a “covered
                                                       relationship” with a person who
                                                       represents the committee. 5 C.F.R. §
                                                       2635.501(a.). ”
                                                       For management's full response, see
                                                       page 11




                                                                                                                          22 

Summary of Audit Findings and Recommendations and Management’s Response
 Finding            Recommendation                         Management Response                            OIG Comment
           5. Document and implement              “Partially agree with recommendation:         The OIG believes management’s
           standard quality control processes     Currently, several longstanding               planned actions will address this
           and procedures. To ensure quality      procedures provide sufficient quality         recommendation. However,
           controls are properly implemented      control consistent with professional          OIG notes that it is imperative
           and operating effectively, AD          auditing standards. Management will           that sufficient monitoring
           Management should incorporate          enhance the documentation of quality          controls (e.g. quality control
           the following controls:                control policies and procedures in the        checklist, finalizing projects in
           •    create a quality control          FEC Audit Division Quality Standards (to      TeamMate) are implemented to
                checklist to be completed at      be completed September 2012). See             ensure the process is consistently
                the end of each audit to          response in Recommendation #4 above.”         operating effectively. The OIG
                ensure audit workpapers                                                         looks forward to reviewing the
                properly reflect that the audit                                                 quality control policies and
                was performed in accordance                                                     procedures to ensure it fully
                to the quality control                                                          addresses this recommendation.
                framework adopted;
           •    require audit staff and
                applicable specialists (RAD
                campaign finance analysts) to
                certify they are free from
                external impairments related
                to the committees they are
                auditing; and
           •    implement a process to
                ensure all Teammate audit
                projects are finalized to
                ensure all workpapers have
                been properly prepared and
                reviewed.


           6. Conduct a formalized annual         “Agree with recommendation:                   The OIG believes management’s
           internal quality control assessment    Management is committed to monitoring         response will address this
           of the AD’s overall audit process      the current quality control procedures        recommendation once fully
           to include the attributes identified   (referencing and management review)           implemented. The OIG looks
           in GAS 3.53 (a-f) (see above) or       and, in accordance with FEC Audit             forward to reviewing the quality
           another audit best practice to         Division Quality Standards, which will be     control framework to ensure that
           monitor the effectiveness and          completed in September 2012, a periodic       it fully addresses auditing best
           efficiency of the audit process. If    internal quality control assessment will be   practices included in this
           improvements are noted during the      conducted.”                                   recommendation.
           assessment, management should
           develop and document the
           recommendation(s) and corrective
           action(s) to address the issues
           noted.




                                                                                                                      23 

  Summary of Audit Findings and Recommendations and Management’s Response
    Finding             Recommendation                          Management Response                           OIG Comment
C. Proper       7. Implement standard control         “Agree with recommendation:                    The OIG believes management’s
evidence to     procedures for documenting            Management is in the process of                planned actions will address this
support         proper review and supervision of      formalizing written review and                 recommendation once fully
supervisory     each audit and incorporate into the   supervision procedures that will follow        implemented. The OIG looks
review not      overall quality control framework.    the FEC Audit Division Quality                 forward to reviewing the review
consistently    The review and supervision            Standards. Although at the time of the         and supervision procedures to
documented in   process should include the            OIG audit, standards were not formally         ensure they fully address this
workpapers      following:                            documented, procedures were and remain         recommendation.
                •    the audit managers should be     in place for the proper review and
                     required to sign-off on all      supervision of all audits. Additionally, all
                     program audit steps included     workpapers, findings and reports are, and
                     in TM;                           continue to be, thoroughly reviewed by
                •    workpapers (WPs) should be       Management. The Division provided
                     properly signed-off by the       training to all staff on workpaper sign-off
                     person who prepared the          procedures and report referencing
                     WPs;                             guidelines in November 2011 and in
                •    once workpapers are              March 2012. In addition, written
                     uploaded in TM, they should      procedures on how to document the
                     be properly signed-off as        applicable audit steps in TeamMate were
                     “reviewed” by a higher level     sent to the staff in March of 2012 to
                     AD staff member (i.e. lead       reinforce consistency of review across the
                     auditor/audit manager);          Division.”
                •    coaching notes (reviewer
                     comments) should be
                     required to be sufficiently
                     addressed and cleared with
                     the proper sign-offs in TM;
                     and
                •    AD management (or
                     designee) should ensure that
                     workpapers that support data
                     included in the audit report
                     and subsequently cross
                     referenced to the report have
                     been properly signed-off by
                     the reviewer before the audit
                     report indexing procedure is
                     completed.




                                                                                                                           24 

  Summary of Audit Findings and Recommendations and Management’s Response
     Finding                Recommendation                          Management Response                           OIG Comment
D. The role of     8. The AD should:                      “Disagree with recommendations:                OIG does not agree that the
the RAD            •    revise the RAD Audit              Management already has a written policy        current written policy (RAD
campaign                Fieldwork Guide to include        that outlines the role for the campaign        Audit Fieldwork Guide)
finance analysts        clearly defined roles of the      finance analyst that is suitable to their      adequately explains the role of
that participate        RAD campaign finance              expertise. Management will incorporate         the RAD campaign finance
on audits is not        analyst during an audit, a list   the RAD audit fieldwork guide into the         analyst. The OIG would suggest
adequately              of the types of audit             FEC Audit Division Quality Standards.          that management consider
defined or              procedures the analyst can be     All work performed by a RAD campaign           revising the RAD Audit
properly                assigned, and what specific       finance analyst is reviewed by the Lead        Fieldwork Guide and then
documented              audit steps are prohibited        Auditor and Audit Manager to ensure            incorporate standard
                        from being performed by           proper utilization of this specialist’s work   practice/controls related to the
                        RAD campaign finance              throughout the process.                        work of RAD campaign finance
                        analysts.                                                                        analysts into the applicable
                   •    each AD staff member is           AD will require the campaign finance           quality control documents.
                        responsible for providing         analyst to sign-off on their completed
                        adequate documentation to         work. For management's full response,          In addition, based on audits
                        support CPEs earned; and          see page 16.                                   reviewed by OIG, there was not
                        document the work                                                                consistent evidence to support
                        performed by RAD campaign                                                        that the work of RAD campaign
                        finance analysts for each                                                        finance analysts was always
                        audit and RAD campaign                                                           properly documented and
                        finance analysts should be                                                       reviewed. The OIG believes
                        required to sign-off on any                                                      management’s decision to require
                        audit workpapers prepared                                                        campaign finance analysts to
                        before they are uploaded in                                                      sign-off on work completed will
                        TM (as RAD campaign                                                              improve controls to ensure work
                        finance analysts are not                                                         of RAD campaign finance
                        provided access to TM).                                                          analyst is properly documented.




E. Continuing      9. The AD should formally              “Agree with recommendation:                    The OIG believes management’s
professional       document their policies and            Management will formalize CPE policies         planned actions will address this
education (CPE)    procedures relating to current CPE     in the FEC Audit Division Quality              recommendation once fully
best practices     requirements. The policy should        Standards, which will include the existing     implemented. The OIG looks
needs to be        include the following:                 80 hour CPE requirement, guidelines that       forward to reviewing the CPE
improved           •    the AD has adopted the 80         explain what type of training is eligible      policy to ensure it fully addresses
                        hour CPE requirements in          and instructions on maintaining                this recommendation.
                        accordance with GAO’s             documentation on the server.”
                        Guidance on GAGAS
                        Requirements for Continuing
                        Professional Education;
                   •    each AD staff member is
                        responsible for providing
                        adequate documentation to
                        support CPEs earned; and
                   •    guidelines that explain and
                        give examples of what type
                        of training is eligible and
                        ineligible to meet GAGAS
                        CPE requirements.




                                                                                                                                25 

Summary of Audit Findings and Recommendations and Management’s Response
 Finding            Recommendation                          Management Response                           OIG Comment
           10. Strengthen control procedures      “Disagree with recommendation: All CPE        Based on the results of our audit
               to ensure AD CPE                   classes were properly documented              testing, we conclude that for the
               requirements are met by            through spreadsheets, emails, attendance      period reviewed, the AD’s CPE
               implementing the following:        sheets, certificates, etc. Management         monitoring procedures were not
           •    The audit manager                 tracks all the aforementioned information.    operating effectively, nor do they
                responsible for tracking and      Additionally, Management provided OIG         support management’s response.
                monitoring CPEs should be         copies of all certificates for all but four   OIG’s subsequent reviews still
                required to verify that all       instances.”                                   resulted in 22 instances of
                training included in the CPE                                                    missing or inadequate CPE
                tracking report is supported                                                    documentation.
                by proper evidence in
                accordance with GAO’s                                                           Failure to implement this
                Guidance on GAGAS                                                               recommendation or apply
                Requirements for Continuing                                                     alternate monitoring procedures
                Professional Educations,                                                        will continue to increase the risk
                Section 36: Maintaining                                                         of not having adequate controls
                Documentations; and                                                             related to ensuring audit staff
           •    When training request forms                                                     complies with CPE best
                are the only source of                                                          practices.
                evidence. AD staff should be
                required to sign the training
                form in the appropriate
                section to certify that they
                actually attended and/or
                completed the training.


           11. The Audit Division should          “Partially agree with recommendation:         The OIG believes management’s
               establish training guidelines to   Management will formalize CPE policies        planned actions will address this
               ensure employees are               in the FEC Audit Division Quality             recommendation once fully
               obtaining proper training (e.g.    Standards. Although Management has            implemented. We still believe
               training on applicable auditing    been tracking this information, it will       that incorporating training to
               standards, audit related           enhance this procedure by making it           satisfy CPE best practices into
               topics). Individual training       available to the staff in real time.          individual auditors’ annual
               needs and types of training        Additionally, Management will develop a       performance plans is a best
               planned to meet GAGAS CPE          core curriculum for the staff and will meet   practice that should be
               requirements should be             annually to discuss.”                         considered by management. The
               incorporated into each                                                           OIG looks forward to reviewing
               auditor’s annual performance                                                     the CPE policy to ensure it fully
               plan.                                                                            addresses this recommendation.




                                                                                                                       26 

                         Federal Election Commission
                           Office of Inspector General




    Fraud Hotline
    202-694-1015




      or toll free at 1-800-424-9530 (press 0; then dial 1015)
      Fax us at 202-501-8134 or e-mail us at oig@fec.gov
      Visit or write to us at 999 E Street, N.W., Suite 940, Washington DC 20463




Individuals including FEC and FEC contractor employees are encouraged to alert the OIG to
fraud, waste, abuse, and mismanagement of agency programs and operations. Individuals
who contact the OIG can remain anonymous. However, persons who report allegations are encouraged
to provide their contact information in the event additional questions arise as the OIG evaluates the
allegations. Allegations with limited details or merit may be held in abeyance until further specific details
are reported or obtained. Pursuant to the Inspector General Act of 1978, as amended, the Inspector
General will not disclose the identity of an individual who provides information without the consent of that
individual, unless the Inspector General determines that such disclosure is unavoidable during the course
of an investigation. To learn more about the OIG, visit our Website at: http://www.fec.gov/fecig/fecig.shtml

                            Together we can make a difference.
